      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201




October 8, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Medicaid Personal Care Services Claims Made by Providers in
               New York State (A-02-08-01005)


Attached, for your information, is an advance copy of our final report on personal care services
claims made by providers under the New York State (the State) Medicaid program. We will
issue this report to the State within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-08-01005.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

October 13, 2010

Report Number: A-02-08-01005

Richard F. Daines, M.D.
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, NY 12237

Dear Dr. Daines:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Personal Care Services Claims Made by
Providers in New York State. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kevin W. Smith, Audit Manager, at (518) 437-9390, extension 232, or through email at
Kevin.Smith@oig.hhs.gov. Please refer to report number A-02-08-01005 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Richard F. Daines, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   REVIEW OF MEDICAID
 PERSONAL CARE SERVICES
CLAIMS MADE BY PROVIDERS
   IN NEW YORK STATE




                      Daniel R. Levinson
                       Inspector General

                        October 2010
                        A-02-08-01005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY
BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New York State (the State), the Department of Health (DOH) administers the Medicaid
program. Within DOH, the Office of Long Term Care oversees the personal care services
program. Each county’s social services district is responsible for authorizing personal care
services, arranging service delivery, and monitoring the personal care services program.

Pursuant to 42 CFR § 440.167, personal care services are generally furnished to individuals
residing in their homes and not residing in hospitals, nursing facilities, intermediate care
facilities for the mentally retarded, or institutions for mental diseases. Medicaid beneficiaries are
authorized for personal care services by a physician in accordance with a plan of treatment or
with a service plan approved by the individual State. Pursuant to the State’s regulations:
(1) personal care services must be authorized and reauthorized based on a physician’s order,
nursing assessment, and social assessment; (2) a physician, physician’s assistant, or nurse
practitioner (medical professionals) must examine the beneficiary within 30 days before the
physician’s order is signed; (3) the delivery of personal care services must be supervised by a
registered professional nurse; (4) personal care aides must receive the required in-service
training; and (5) providers must document the time spent providing services to each patient.
Examples of personal care services include cleaning, shopping, grooming, and bathing.

This review excluded personal care service claims submitted by 100 providers in New York
City, which we audited separately.

OBJECTIVE

The objective of our review was to determine whether the State properly claimed Federal
Medicaid reimbursement for personal care services claims submitted by 217 providers. Our
audit period covered January 1, 2004, through December 31, 2006.

SUMMARY OF FINDINGS

The State improperly claimed Federal Medicaid reimbursement for some personal care services
claims submitted by providers. Of the 100 claims in our random sample, 61 claims complied
with Federal and State requirements, but 31 claims did not. We could not determine whether the
remaining eight claims, which involved services under the State’s Consumer Directed Personal
Assistance Program (CDPAP), complied with Federal and State requirements and are setting
aside those claims for resolution by CMS and the State.



                                                  i
Of the 31 noncompliant claims, 10 contained more than 1 deficiency:

   •   For 19 claims, there was no nursing assessment.

   •   For 12 claims, a medical professional did not examine the beneficiary within 30 days
       before the order for personal care services was signed.

   •   For four claims, there was no physician’s order.

   •   For three claims, there was no nursing supervision.

   •   For two claims, the personal care aide did not receive in-service training.

   •   For one claim, the time spent providing services to the patient was not documented.

Of the 100 claims in our sample, 8 were CDPAP claims that lacked either an applicable
physician’s order or nursing assessment. These eight claims are being set aside for resolution by
CMS and the State because it is unclear whether State requirements regarding physician’s orders
and nursing assessments (18 NYCRR § 505.14) apply to CDPAP claims.

These deficiencies occurred because the State did not effectively monitor the personal care
services program for compliance with certain Federal and State requirements.

Based on our sample results, we estimate that the State improperly claimed $100,335,472 in
Federal Medicaid reimbursement during our January 1, 2004, through December 31, 2006, audit
period. In addition, we estimate that the State claimed $15,325,689 for CDPAP claims that may
not have complied with State requirements.

We conducted interviews with 55 of the 100 sampled beneficiaries or their family members. Of
the 55 individuals interviewed, 38 identified quality-of-care problems with a personal care
services aide, problems with the personal care services agency, or other problems. These
include, but are not limited to, physical abuse or threats of physical abuse, theft, and beneficiary
abandonment.

RECOMMENDATIONS

We recommend that the State:

       •   refund $100,335,472 to the Federal Government;

       •   improve its monitoring of the personal care services program to ensure compliance
           with Federal and State requirements;




                                                  ii
       •   work with CMS to resolve the eight CDPAP claims and, if applicable, refund the
           estimated $15,325,689 in unallowable payments; and

       •   promulgate specific regulations related to claims submitted under the CDPAP.

NEW YORK STATE COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State disagreed with our first recommendation (financial
disallowance) and agreed with our remaining recommendations. The State also disagreed with
many elements of our findings. The State indicated that the claims in our sample substantially
complied with regulations. Further, the State noted that it found nothing in our draft report or
local social services districts’ documentation to indicate that any services related to
noncompliant sample claims were inappropriate, excessive, or unnecessary to maintain the
beneficiary’s health and safety in the community. Under separate cover from its response, the
State provided additional documentation and written explanations for certain sample claims.

After reviewing the State’s comments on our draft report, additional documentation, and written
explanations, we revised our findings and modified our statistical estimates accordingly. The
State’s comments appear in their entirety as Appendix D.




                                               iii
                                                     TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            New York State’s Medicaid Program ................................................................1
            New York State’s Personal Care Services Program ..........................................1
            Federal and State Requirements Related to Personal Care Services .................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................3
            Objective ............................................................................................................3
            Scope .................................................................................................................3
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................5

          NO NURSING ASSESSMENT ..............................................................................5

          PHYSICIAN’S ORDER DEFICIENCIES ..............................................................6

          NO PHYSICIAN’S ORDER ...................................................................................6

          NO NURSING SUPERVISION ..............................................................................6

          NO IN-SERVICE TRAINING ON THE PART OF AIDE .....................................6

          NO DOCUMENTATION........................................................................................7

          CONSUMER DIRECTED PERSONAL ASSISTANCE
           PROGRAM CLAIMS ...........................................................................................7

          CAUSE OF UNALLOWABLE CLAIMS...............................................................7

          ESTIMATIONS .......................................................................................................7

          RECOMMENDATIONS .........................................................................................8

          NEW YORK STATE COMMENTS .......................................................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................8




                                                                     iv
OTHER MATTER: BENEFICIARY-IDENTIFIED PROBLEMS
 WITH PERSONAL CARE SERVICES .......................................................................9

        THEFT OF PROPERTY..........................................................................................9

        PHYSICAL ABUSE OR THREATS OF PHYSICAL ABUSE ...........................10

        BENEFICIARY ABANDONMENT .....................................................................10

APPENDIXES

        A: FEDERAL AND STATE REQUIREMENTS RELATED TO PERSONAL CARE
             SERVICES

        B: SAMPLE DESIGN AND METHODOLOGY

        C: SAMPLE RESULTS AND ESTIMATES

        D: NEW YORK STATE COMMENTS




                                                             v
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

New York State’s Medicaid Program

In New York State (the State), the Department of Health (DOH) is the State agency responsible
for operating the Medicaid program. Within DOH, the Office of Medicaid Management
administers the Medicaid program. DOH uses the Medicaid Management Information System
(MMIS), a computerized payment and information reporting system, to process and pay
Medicaid claims, including personal care services claims. The Federal Government’s share of
costs is known as the Federal medical assistance percentage (FMAP). From January 1, 2004, to
June 30, 2004, the FMAP in the State was 52.95 percent, and from July 1, 2004, through
December 31, 2006, the FMAP was 50 percent.

New York State’s Personal Care Services Program

The State’s personal care services program is operated by DOH’s Bureau of Medicaid Long
Term Care. Although DOH is responsible for the program, each county’s social services district
is responsible for authorizing personal care services, arranging service delivery, and monitoring
the personal care services program.

Title 18 § 505.14 of the New York Compilation of Codes, Rules, & Regulations (NYCRR)
defines “personal care services” as some or total assistance with personal hygiene, dressing and
feeding, nutritional and environmental support functions, and health-related tasks. Such services
must be essential to the maintenance of the beneficiary’s health and safety within his or her own
home, as determined by the social services district in accordance with the regulations of DOH;
ordered by the attending physician; based on an assessment of the beneficiary’s needs; provided
by a qualified person in accordance with a plan of care; and supervised by a registered
professional nurse.

The State operates two levels of personal care services:

       • Level I services are limited to the performance of environmental and nutritional
         functions, including dusting, vacuuming, dishwashing, shopping, laundry, and meal
         preparation, and



                                                1
           • Level II services include Level I services and personal care functions, such as assisting
             beneficiaries with bathing, grooming, and toileting. 1

Each county’s social services district oversees that county’s personal care services program and
provides case management. 2 Services are provided through contracts with home care/personal
care agencies.

To receive personal care services, a Medicaid beneficiary must have a physician’s order. When
a county social services district receives the physician’s order, a case record is established and a
caseworker is assigned to the beneficiary. An initial authorization for services is based on the
physician’s order, a social assessment, and a nursing assessment. Authorizations for personal
care services are required to be completed before the initiation of services. The reauthorization
process generally includes the same procedures as the initial authorization; however, Level I
services do not require a nursing assessment if the physician’s order indicates that the
beneficiary’s medical condition is unchanged. After completing the authorization process, a
caseworker contacts a local personal care services provider so it can assign a personal care aide
unless the beneficiary hires his or her own aide under the State’s Consumer Directed Personal
Assistance Program (CDPAP). 3

Federal and State Requirements Related to Personal Care Services

The State and the social services districts must comply with certain Federal and State
requirements in determining and redetermining whether beneficiaries are eligible for personal
care services. Pursuant to section 1905(a)(24) of the Act and implementing Federal regulations
(42 CFR § 440.167), personal care services must be: (1) authorized for an individual by a
physician in a plan of treatment or in accordance with a service plan approved by the individual
State; (2) provided by an individual who is qualified to provide such services and who is not a
member of the individual’s family; and (3) furnished in a home or, at the State’s option, in
another location.

Office of Management and Budget Circular A-87 establishes principles and standards for
determining allowable costs incurred by State and local governments under Federal awards.
Section C.1.c. of Attachment A of the Circular provides that to be allowable, costs must be
authorized or not prohibited by State or local laws or regulations.



1
 The State’s regulations reference three levels of service (Level I, Level II, and Level III), but the State’s current
personal care services program provides only Level I and Level II services.
2
    Bronx, Kings, New York, Queens, and Richmond Counties make up one social services district (New York City).

3
  Section 365-f of the New York Social Services Law established the CDPAP. Under the CDPAP, the beneficiary
may hire his or her own aide, train the aide according to the beneficiary’s personal preferences, supervise and direct
the provision of service, and fire the aide. Although the program has been in effect since 1996, it was not defined
under the State plan until Amendment 07-32 was approved by CMS on April 8, 2008, with an effective date of July
1, 2007. The State plan notes that the eligibility, assessment, and prior authorization of services mirror those of the
personal care services program. The State has not promulgated specific State regulations applicable to the CDPAP.


                                                            2
Title 18 of NYCRR § 505.14 establishes requirements for the State’s personal care services
program. These requirements include that a physician, physician’s assistant, or nurse
practitioner (medical professionals) complete the physician’s order for personal care services
within 30 calendar days of conducting a medical examination and that social and nursing
assessments be prepared as part of the authorization and reauthorization of personal care
services. Authorization for Level I and II services must be based on an assessment of the
beneficiary’s appropriateness for other services that are medically necessary and that the
county’s social services district “reasonably expects can maintain the patient’s health and safety
in his or her home ….” 4 In addition, the provision of services must be supported by
documentation of the time spent providing services to each patient. Appendix A contains the
specific Federal and State requirements related to personal care services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether the State properly claimed Federal
Medicaid reimbursement for personal care services claims submitted by 217 providers.

Scope

Our audit period covered January 1, 2004, through December 31, 2006. Our audit population
consisted of 11,511,394 claims, totaling $1,101,392,649 ($551,500,292 Federal share), submitted
by the 217 providers. Our audit population did not include claims for services submitted by 100
providers in New York City, which were audited separately. 5

During our audit, we did not review the overall internal control structure of the State or the
Medicaid program. Rather, we limited our internal control review to the objective of our audit.

We conducted fieldwork at DOH’s offices in Albany, New York; at the State MMIS fiscal agent
in Rensselaer, New York; and at 34 county social services district offices and 61 personal care
providers throughout the State.

Methodology

To accomplish our objective, we:

        • reviewed applicable Federal and State regulations and guidelines;

        • held discussions with DOH and county social service district officials to gain an
          understanding of the personal care services program;

4
 Some examples of these services include long-term home health services and personal emergency response
services.
5
 Review of Medicaid Personal Care Services Claims Made by Providers in New York City, issued June 8, 2009
(A-02-07-01054).


                                                      3
           • used providers’ correspondence addresses and county codes on the MMIS, which
             identified 217 personal care providers, excluding those located in New York City;

           • ran computer programming applications at the MMIS fiscal agent that identified
             11,514,430 personal care services claims, totaling over $1.1 billion ($552 million
             Federal share) for the 217 providers;

           • eliminated from our programming applications all personal care services claims
             identified in an August 2007 Office of the New York State Comptroller audit report; 6

           • determined that our revised sampling frame contained 11,511,394 claims, totaling
             $1,101,392,649 ($551,500,292 Federal share), made by the 217 providers;

           • selected a simple random sample of 100 claims from the sampling frame of 11,511,394
             claims; and

           • estimated unallowable and potentially unallowable Federal Medicaid reimbursement
             paid in the population of 11,511,394 claims.

Appendix B contains the details of our sample design and methodology.

For each of the 100 sampled claims, we:

           • reviewed the corresponding personal care provider’s documentation supporting the
             claim;

           • reviewed the corresponding county social services district’s case file;

           • reviewed documentation from the physician ordering the personal care services to
             confirm whether a medical professional had examined the beneficiary within 30 days
             before the order was signed; and

           • visited the beneficiary or the family members, if available, associated with the claim to
             inquire about the personal care services received and referred all quality-of-care issues
             identified to our Office of Investigations. 7

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.
6
 Medicaid Payments to Home Care Providers While Recipients Were Hospitalized, Office of the New York State
Comptroller, Division of State Government Accountability, Report 2006-S-77 (August 28, 2007).
7
    We were able to visit only 55 of the 100 beneficiaries because of various reasons (e.g., relocation, illness).


                                                              4
                                 FINDINGS AND RECOMMENDATIONS

The State improperly claimed Federal Medicaid reimbursement for some personal care services
claims submitted by providers. Of the 100 claims in our random sample, 61 claims complied with
Federal and State requirements, but 31 claims did not. We could not determine whether the
remaining eight claims, which involved services under the State’s CDPAP, complied with Federal
and State requirements and are setting aside those claims for resolution by CMS and the State. Of
the 31 claims, 10 contained more than 1 deficiency. Table 1 summarizes the deficiencies noted
and the number of claims that contained each type of deficiency.

                       Table 1: Summary of Deficiencies in Sampled Claims
                                                                         Number of
                            Type of Deficiency                      Unallowable Claims 8
     No nursing assessment                                                 19
     Physician’s order deficiencies                                        12
     No physician’s order                                                                            4
     No nursing supervision                                                                          3
     No in-service training on the part of the aide                                                  2
     No documentation                                                                                1

For eight sample claims submitted under the CDPAP, seven claims lacked applicable nursing
assessments and three claims lacked applicable physician’s orders. 9 We are setting aside these
eight claims for resolution by CMS and the State because it is unclear whether State requirements
apply to these claims.

These deficiencies occurred because the State did not effectively monitor the personal care
services program for compliance with certain Federal and State requirements.

Based on our sample results, we estimate that the State improperly claimed $100,335,472 in
Federal Medicaid reimbursement during our January 1, 2004, through December 31, 2006, audit
period. In addition, we estimate that the State claimed $15,325,689 for CDPAP claims that may
not have complied with State requirements.

NO NURSING ASSESSMENT

Pursuant to 18 NYCRR § 505.14, authorizations for Level I and II services must include a nursing
assessment prepared by a registered professional nurse. 10 For 19 of the 100 claims in our sample,
the county social services district could not provide an applicable nursing assessment.

8
    The total exceeds 31 because 10 claims contained more than 1 error.
9
    The total exceeds eight because two claims contained more than one error.
10
  Reauthorization for Level I services does not require a nursing assessment if the physician’s order indicates that the
beneficiary’s medical condition is unchanged.



                                                           5
PHYSICIAN’S ORDER DEFICIENCIES

Pursuant to 18 NYCRR § 505.14(b)(3)(i), a medical professional is required to complete the
physician’s order for personal care services within 30 calendar days after conducting a medical
examination of the beneficiary. For 12 of the 100 claims in our sample, the required medical
professional did not examine the beneficiary within 30 calendar days before the physician’s order
was signed. 11 If a medical professional had not examined the beneficiary within 60 calendar days
before the date the physician’s order was signed, we questioned the claim.

NO PHYSICIAN’S ORDER

Pursuant to section 1905(a)(24) of the Act, implementing Federal regulations (42 CFR
§ 440.167(a)(1)), and 18 NYCRR § 505.14, personal care services must be authorized by a
physician. The physician’s order is part of an authorization package that must be completed
before the authorization and reauthorization of services. Of the 100 claims in our sample, 4 did
not have an applicable physician’s order before the authorization or reauthorization period of
personal care services.

NO NURSING SUPERVISION

Pursuant to 18 NYCRR § 505.14(f), all persons providing Level I and II personal care services
are subject to supervision by a registered nurse. Supervisory nursing visits must be made at least
every 90 days except when the beneficiary is self-directing and his or her medical condition is not
expected to change. 12 In those cases, supervisory and nursing assessment visits may be combined
and conducted every 6 months. For 3 of the 100 claims in our sample, there was no evidence that
a registered nurse supervised the personal care services within the 6 months before the date of the
sample service.

AIDE DID NOT RECEIVE IN-SERVICE TRAINING

Pursuant to 18 NYCRR § 505.14(e)(2)(ii), in-service training shall be provided, at a minimum,
for 3 hours semiannually for each person providing personal care services (other than household
functions only) to develop specialized skills or knowledge not included in basic training or to
review or expand skills or knowledge included in basic training. For 2 of the 100 claims in our
sample, there was no evidence that the personal care aide received any in-service training for the
calendar year that included our sample service date.




11
  Although a medical examination date was noted on 6 of the 12 physicians’ orders and none was noted on the
remaining 6, we based our disallowance for this category on the fact that the underlying medical record for each
claim did not support the examination date.
12
  Self-directing means that the beneficiary is capable of making choices about his or her activities of daily living,
understanding the impact of the choices, and assuming responsibility for the results of the choices.


                                                            6
NO DOCUMENTATION

Pursuant to 18 NYCRR § 505.14(h)(1), no payments for a personal care service claim shall be
made to a provider for authorized services unless the claim is supported by documentation of the
time spent providing services for each patient. For 1 of the 100 claims in our sample, the
provider could not document the time spent providing services.

CONSUMER DIRECTED PERSONAL ASSISTANCE PROGRAM CLAIMS

New York Social Services Law 365-f established the CDPAP in 1996. The State has not issued
specific regulations applicable to the CDPAP. Of eight CDPAP claims, seven claims lacked
applicable nursing assessments and three claims lacked applicable physician’s orders. 13 We are
setting aside these claims because it is unclear whether State requirements regarding physician’s
orders and nursing assessments (18 NYCRR § 505.14) apply to CDPAP claims.

CAUSE OF UNALLOWABLE CLAIMS

The State did not effectively monitor the personal care services program. The State conducts
periodic onsite monitoring visits of its social services districts to review case records for
compliance with applicable State regulations but did not conduct monitoring visits at personal
care providers or at the ordering physicians’ offices. In some cases, reports of the State’s
monitoring visits at social services districts noted instances of noncompliance similar to those
discussed above and recommended corrective actions. However, despite these monitoring visits
and recommended corrective actions, improper claims for Federal Medicaid reimbursement were
submitted.

ESTIMATIONS

Of the 100 personal care services claims sampled, 31 were not made in accordance with Federal
and State requirements. Based on our sample results, we estimated that the State improperly
claimed between $100,335,472 and $250,250,939 in Federal Medicaid reimbursement from
January 1, 2004, through December 31, 2006. The details of our sample results and estimates are
shown in Appendix C.

In addition, we could not determine whether eight sample claims submitted under CDPAP
complied with State requirements. Based on our sample results, we estimated that the State
potentially claimed between $15,325,689 and $84,102,826 in unallowable Federal Medicaid
reimbursement. The details of our sample results and estimates are shown in Appendix C.




13
     The total exceeds eight because two claims contained more than one potential error.


                                                           7
RECOMMENDATIONS

We recommend that the State:

       •   refund $100,335,472 to the Federal Government;

       •   improve its monitoring of the personal care services program to ensure compliance
           with Federal and State requirements;

       •   work with CMS to resolve the eight CDPAP claims and, if applicable, refund the
           estimated $15,325,689 in unallowable payments; and

       •   promulgate specific regulations related to claims submitted under the CDPAP.

NEW YORK STATE COMMENTS

In its comments on our draft report, the State disagreed with our first recommendation (financial
disallowance) and agreed with our remaining recommendations. The State also disagreed with
many elements of our findings. The State indicated that the claims in our sample substantially
complied with regulations and that it found nothing in our draft report or local social services
districts’ documentation to indicate that any services related to noncompliant sample claims were
inappropriate, excessive, or unnecessary to maintain the beneficiary’s health and safety in the
community.

Further, in its response, the State provided specific reasons for disagreeing with our
determinations on six of these claims. Specifically, the State indicated that for four claims for
which a medical professional had not examined the beneficiary within 60 calendar days before
the date the physician’s order was signed, the corresponding beneficiary’s condition “clearly
established the ongoing need for services.” The State also indicated that for one claim for which
there was no physician’s order, the claim “is an Adult Protective Services case for which
discontinuing service would have resulted in health and safety issues.” Finally, for one claim
that lacked documentation of services, the State described the claim as an anomaly because the
provider maintained timesheets for all other days during the week that services were delivered.
Under separate cover from its response, the State provided additional documentation and written
explanations for 42 sample claims, including the 6 mentioned above.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State’s comments on our draft report, additional documentation, and written
explanations, we revised our findings by accepting 4 of 35 claims that we had questioned and
modified our statistical estimates accordingly. The State’s comments appear in their entirety as
Appendix D.

We did not revise our treatment of the six claims discussed individually in the State’s response.
Regarding the four claims for which a medical professional had not examined the beneficiary
within 60 calendar days before the date the physician’s order was signed, we maintain that these


                                                8
claims were unallowable. Our determination for each of these claims was based on a review of
the beneficiaries’ medical records—not on their medical conditions. Regarding the one claim
related to an Adult Protective Services case, we maintain that such claims are not exempt from
the requirement that personal care services require a timely physician’s order. For the one claim
that the State described as an anomaly, we maintain that the provider cannot provide
documentation to support the claim; therefore, the claim is unallowable.

                   OTHER MATTER: BENEFICIARY-IDENTIFIED PROBLEMS
                           WITH PERSONAL CARE SERVICES

We interviewed 55 of the 100 sampled beneficiaries or their family members to determine
(1) whether quality-of-care issues existed, (2) the service type and frequency, and (3) whether
any service-related problems existed. We did not interview the remaining 45 sampled
beneficiaries because the beneficiaries were deceased, had moved out of the State, or could not
be located. Of the 55 individuals interviewed, 38 identified quality-of-care problems with a
personal care services aide, problems with the personal care services agency, or other
problems. 14 Table 2 summarizes the problems identified and the number of beneficiaries who
encountered each type of problem. 15

                       Table 2: Problems Identified in Beneficiary Interviews
                                                                            Number of
                              Type of Problem                              Beneficiaries 16
     Problems with the personal care agency                                     12
     Theft of property by the personal care aide                                11
     Personal care aide engaged in unrelated activities                          7
     Plan of care not received by the beneficiary                                6
     Physical abuse/threats by the personal care aide                            5
     Plan of care not followed by the personal care aide                         3
     Beneficiary abandonment by the personal care aide                           2
     Other (e.g., personal care aide was intoxicated, personal care aide
     asked for money)                                                           25




14
  We were unable to determine if any of the identified problems occurred on the specific service date drawn in our
sample. For some beneficiaries, we were able to determine that the problems identified occurred during our audit
period or that the aide on duty on the service date we reviewed was the cause of the beneficiary’s problems. Not all
of the identified problems occurred during our 3-year audit period.
15
     We referred all quality-of-care issues identified by the 38 beneficiaries to our Office of Investigations.
16
     The total exceeds 55 because 18 beneficiaries identified more than 1 problem.



                                                              9
Below are examples of some of the problems identified in our interviews.

THEFT OF PROPERTY

Of the 55 individuals we interviewed, 11 indicated that a personal care services aide stole
property from them. For example, the father of an adult beneficiary in the CDPAP alleged that
his son’s aide stole $47,688 between June and November 2006 from a joint bank account held by
the father and son for the son’s care. The mother of a second adult beneficiary alleged that her
daughter’s aide stole her newly issued credit card, activated it, and used it. 17 The mother stated
that she was unaware of this until her credit card company contacted her about suspicious
activity on her account. The mother further stated that she contacted local law enforcement but
did not file a complaint for fear of retaliation by the aide. Among the other items allegedly
stolen from other beneficiaries were cash, diamonds, $400 worth of coins, and jewelry. One
beneficiary stated that an aide stole her birth certificate.

PHYSICAL ABUSE OR THREATS OF PHYSICAL ABUSE

Of the 55 individuals we interviewed, 5 indicated that a personal care services aide abused or
threatened to abuse the beneficiary. For example, the mother of an adult beneficiary alleged that
her daughter’s aide attempted to smother the beneficiary with a pillow. 18 The mother stated that
the aide said “Let’s play dead” to the beneficiary and placed a pillow over the beneficiary’s face,
preventing her from breathing. The mother stated that she contacted the personal care agency
about the incident and, afterward, the aide confessed to the incident in front of an agency nurse.
In a second example, the daughter of a beneficiary stated that her mother’s aide verbally and
physically abused her mother. 19 The daughter stated that she overheard the aide through a baby
monitor verbally abusing her mother about a diaper change. When the daughter entered the
room, she stated that she saw the aide grabbing and shoving the beneficiary. Local law
enforcement was contacted and removed the aide from the home. Other examples of abuse
alleged by beneficiaries included verbal abuse and inappropriate touching.

BENEFICIARY ABANDONMENT

Of the 55 individuals we interviewed, 2 indicated that a personal care services aide abandoned
the beneficiary. One beneficiary indicated that her aide abandoned her outside of a store while
the aide shopped for approximately 1 hour. A second beneficiary indicated that, on several
occasions, his aide would not show up for scheduled services, thereby leaving him unattended at
home.




17
     The mother lives with the beneficiary, whose physical condition does not allow her to easily communicate.
18
     The mother lives with the beneficiary, whose physical condition does not allow her to easily communicate.
19
     The beneficiary is bedridden and lives with her daughter.


                                                           10
APPENDIXES
                                                                                         Page 1 of 2


       APPENDIX A: FEDERAL AND STATE REQUIREMENTS RELATED TO
                       PERSONAL CARE SERVICES

•   Section 1905(a)(24) of the Social Security Act and implementing Federal regulations
    (42 CFR § 440.167) permit States to elect, as an optional Medicaid benefit, personal care
    services furnished to an individual who is not an inpatient or resident of a hospital, nursing
    facility, intermediate care facility for persons with mental retardation, or institution for
    mental disease. The statute specifies that personal care services must be: (1) authorized for
    an individual by a physician within a plan of treatment or in accordance with a service plan
    approved by a State; (2) provided by an individual who is qualified to provide such services
    and who is not a member of the individual’s family; and (3) furnished in a home or other
    location.

•   Federal regulations (42 CFR § 440.167(a)(1)) and Title 18 of the New York Compilation of
    Codes, Rules, & Regulations (NYCRR) § 505.14 specify that personal care services must be
    authorized by a physician. The physician’s order is part of an authorization package that is
    required to be completed before the initial authorization and reauthorization of services.

•   Office of Management and Budget Circular A-87 establishes principles and standards for
    determining allowable costs incurred by State and local governments under Federal awards.
    Section C.1.c. of Attachment A of the Circular provides that to be allowable, costs must be
    authorized or not prohibited by State or local laws or regulations.

•   Medical professionals must complete the physician’s order for personal care services within
    30 calendar days after conducting a medical examination of the beneficiary (18 NYCRR
    § 505.14(b)(3)(i)). A physician must sign the physician’s order and certify that the recipient
    can be cared for at home.

•   All persons providing Level I and II personal care services must be subject to nursing
    supervision (18 NYCRR § 505.14(f)). This supervision must ensure that the beneficiary’s
    needs are appropriately met by the case management agency’s (county social services
    district) authorization for the level, amount, frequency, and duration of services and that the
    person providing services is competent and safely performing the tasks specified in the plan
    of care. Supervisory nursing visits must be made at least every 90 days except when the
    beneficiary is self-directing and his or her medical condition is not expected to change. In
    those cases, supervisory and nursing assessment visits may be combined and conducted
    every 6 months.

•   The initial authorization for Level I and II services must include a nursing assessment
    prepared by a registered professional nurse (18 NYCRR § 505.14(b)(2)(iii)).
    Reauthorization for Level I services does not require a nursing assessment if the physician’s
    order indicates that the beneficiary’s medical condition is unchanged (18 NYCRR
    § 505.14(b)(3)(ix)(a)). The nursing assessment shall include the following: (1) a review and
    interpretation of the physician’s order, (2) the primary diagnosis code, (3) an evaluation of
    the functions and tasks required by the beneficiary, (4) the degree of assistance required,
                                                                                      Page 2 of 2


    (5) the development of a plan of care, and (6) recommendations for authorization of services
    (18 NYCRR § 505.14(b)(3)(iii)(b)).

•   In-service training shall be provided, at a minimum, for 3 hours semiannually for each person
    providing personal care services (other than household functions only) to develop specialized
    skills or knowledge not included in basic training or to review or expand skills or knowledge
    included in basic training (18 NYCRR § 505.14(e)(2)(ii)).

•   No payments to the provider shall be made for authorized services unless the claim is
    supported by documentation of the time spent in provision of services for each individual
    patient (18 NYCRR § 505.14(h)(1)).
                APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

Population

The population was personal care services claim lines submitted by 217 providers in New York
State (the State) during our January 1, 2004, through December 31, 2006, audit period that were
claimed for Federal Medicaid reimbursement by the State.

Sampling Frame

The sampling frame was a computer file containing 11,511,394 detailed claim lines for personal
care services submitted by 217 providers during our audit period. The total Medicaid
reimbursement for the 11,511,394 claim lines was $1,101,392,649 ($551,500,292 Federal share).
The Medicaid claim lines were extracted from the paid claims’ files maintained at the Medicaid
Management Information System fiscal agent.

Sampling Unit

The sampling unit was an individual Federal Medicaid personal care claim line.

Sample Design

We used a simple random sample to evaluate the population of Federal Medicaid personal care
claim lines.

Sample Size

We selected a sample size of 100 claim lines.

Source of Random Numbers

The source of the random numbers was the Office of Inspector General, Office of Audit
Services statistical software, RAT-STATS. We used its random number generator for selecting
our random sample items

Method for Selecting Sample Items

We sequentially numbered the 11,511,394 detailed claim lines. After generating 100 random
numbers, we selected the corresponding frame items. We created a list of 100 sample items.

Estimation Methodology

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the improper claim lines.
                       APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                            Unallowable Claims: Sample Details and Results
                                                                                              Value of
                                                                               Number
                        Value of                                                             Unallowable
                                                          Value of                 of
                         Frame                                                                 Claims
     Claims in                            Sample           Sample             Unallowable
                        (Federal                                                              (Federal
      Frame                                Size        (Federal Share)          Claims
                         Share)                                                                Share)
    11,511,394        $551,500,292          100             $4,727                31           $1,523


                                   Unallowable Claims: Estimates
                       (Limits Calculated for a 90-Percent Confidence Interval)

                                                          Estimated Unallowable
                                                                  Costs
                                Point Estimate                     $175,293,206
                                Lower Limit                        $100,335,472
                                Upper Limit                        $250,250,939



                    Potentially Unallowable Claims: 1 Sample Details and Results
                                                                                               Value of
                                                                                Number
                                                                                              Potentially
                        Value of                                                   of
                                                          Value of                           Unallowable
                         Frame                                                 Potentially
     Claims in                            Sample           Sample                               Claims
                        (Federal                                              Unallowable
      Frame                                Size        (Federal Share)                         (Federal
                         Share)                                                 Claims
                                                                                                Share)
    11,511,394        $551,500,292          100             $4,727                 8             $432


                             Potentially Unallowable Claims: Estimates
                       (Limits Calculated for a 90-Percent Confidence Interval)

                                                           Estimated Potentially
                                                            Unallowable Costs
                                Point Estimate                       $49,714,257
                                Lower Limit                          $15,325,689
                                Upper Limit                          $84,102,826



1
    These are State’s Consumer Directed Personal Assistance Program claims.
                                                                                                                  Page 1 of 12


                   APPEN DIX D: NEW YORK STATE COMM ENTS


                            STATE OF NEW YORK 

                            DEPARTMENT OF HEALTH 

                            CO<rHng Tower The GovefI'\Of Nebofl A. Rod<eleller Empire State Piau Albany, NewYO!1<; 12237

Richard F. Daines, M.D. 	                                                           James W. Clyne, Jr.
Commissioner 	                                                                      Executive Deputy Commissioner


                                                               June 25, 20 10

     James P. Eden 

     Regional Inspec tor General for Audit Services 

     Department of IleaJth and Human Services 

     Region II 

     Jacob Javilz Federal Building 

     26 Federal Plaza 

     New York, New York 10278

                                                               Ref. No. A-02-08·01005 

     Dear Mr. Eden: 


             EneJoscd arc the New York State Department o fH cuhh's commen t:'; on the Department
     of Health and J'lumari Services, Office of Inspector General's draft audit report 1\·02-08-01005
     on "Review of Medicaid Personal Care Services Cluims Made By Providers in New York Slate,"

             Thank you for the opportuni ty 10 comment.


                                                               Sincerely,


                                                              0......... .J      Cf- ''if' 

                                                               James W. Clyne, Jr. 

                                                               Executive Deputy Commissioner 

     Enclosure

     cc: 	   Robert W. Reed 

             Donna Fresc3tore 

             Mark L. Kissinger 

             James Sheehan 

             Diane Christensen 

             Nicholas Meister 

             Stephen Abbott 

             Irene Myron 

             Ronald Farrell 

             Mary Elwell 

             Lynn Oliver 

                                                                                                            Page 2 of 12




                   New York State Depa rtment of Hea lth 

                             Co mm ents on th e 

                 Department of Hea lth and Hum an Services 

                        Office of Inspecto r General 

                   Draft Audit Report A-02-08-01005 on 

            " Review of Medicaid Personal Ca re Services Claims 

                   Made by Provide rs in New York State" 


The following are the New York State Department of Health's (Department) comments in
response to the Department ofHeahh and Human Services. Office of Inspector General's draft
audit report A-02-0S-001 005 on "Review of Medicaid Personal Care Service Claims Made by
Providers in New York Suite."

IJACKGROUND

New York State's Personal Care Services Program ("PCSP")          \\'85   establishotd in 1973 and is one
oflhc oldest and largest in the country. Regulations were developed when the progn:ffi IlIrgely
served elderly women Jiving atone who had some informal supports and who had occasional
net-d for assislance with thc acti vi ti es of daily living. As a result o f federal initiatives and
incentives to rebalance states' long teM care systems, individuais formerl y cared for in
institutional scltings arc now served in theiT homes and community. Today's PCS P population
includes mentally and physically disabled children and younger adults and elderly with co­
morbidities whose health and safety arc dependent upon the availabili ty of personal care
services. New Yorlc State has long been nationa lly recognized as a leader in the development of
innovative long term care programs and services which allow individuals to remain in their
homes and communities.

In Olmstead v. Zjmring 527 U.S. 581 (1999), the United Slales Supreme Court held that the
Americans with Disabilities Act requ ires Stntes to place disabled patients in integrated settings
(that is, in community settings) when they are medically cleared for such settings. The Coun
held that "the Slate generally may rely upon the reasonable assessments of its 0\\.'11 professionals
in detennining whether an indi vidual meets the essential e ligibil ity requirements ..." (for
placement in a community-based treatment setting).

In response to the Supreme Court 's issuance of the Olmstead Decision, CMS directed slates to
take necessary measures to assure thaI beneficiaries are provided the opportuniiy to receive
services in the least restrictive setting appropriate to thei r needs. Since that di rective was issued.
New York State has partnered with CMS on several grant initiatives to promote home and
community-based care and dcJaylprevent unnecessary institutionalization of individuals wi th
disabilities. PCSP is a critical component of New York State's home care system, assuring the
least restrictive setting to the beneficiary and lowest cost to the system. [n working with e MS on
these issues, New Yo rk has, as Olmstead states, relied upon the reaso nable assessments of its
licensed, Medicaid panieipating, physicians to determine the need for provision and continuation
of these services.
                                                                                                       Page 3 of 12




                                                 2
 OIG DRAFT RE PORT

  The OlG aud it focused on personal care services claims submitted by dne hundred (l 00) 

  providers outside of the New York City area (which Was separately audited) for the three years 

  ended December 31, 2006. 0 10 sampled one hundred (100) randomly selected claims from a 

. universe of 11,511,394 claims. Of the 100 sample selection, 57 were determined by OIG to be in
  compliance with documentation and billing regulat ion. O IG has, on a preliminary basis,
  identified 35 claims which it believes to be in error and 8 claims requiring furthe r analysis. Of
  the 3S claim~, 010 found 13 with more than onc deficiency. Summarized below are the numbers
  of deficiencies, by Iype:

     I. 	 NO NURSING ASSESSMENT                                                  19

    2. 	 MEDICAL PROFESSIONAL DID NOT EXAMINE THE
         I3EN1FlClARY WITHIN 30 DA VS BEFORE THE ORDER
         FOR PERSONAL CARE SERVICES WAS SIGNED                                   17

    3. 	 NO PHYSICIAN'S ORDER                                                     4

    4. 	 NO NURSING SUPERVISION                                                   4

    5. 	 THE PERSONAL CARE AIDE DID NOT RECEIVE 

        IN-SERVICE TRAINING                                                       2


    6. 	 THE PROVIDER DID NOT OBTAIN A CRIMfNAL 

        HISTORY CHECK FOR THE PERSONAL CARE AIDE 


    7. 	 TIME SPENT PROVIDING SERV ICES TO TH E 

        PATI ENT WAS NOT DOC UMENTED 


        TOTAL 	                                                                  48

  l3a~ed on the above, O IG contends New York State improperly claimed $ 120,441,703 in Federal
. Medicaid reimbursement.

 OJG RECOMME NDATIONS

 Detailed below for the DIG's review and consideration is lhe Department's response to each 010
 recommendation.

 D IG Recommend ation # 1:

 The State should refund $120,441,703 to the Federal Government.

 Ilepartmcnl   Re.~po n ~e   #1:

 OIG's draft repon indicates that 35 of the 100 claims in the audit sampl e did not comply with 

 Federal and State requirements, with the 35 claims containing 48 deficiencies, and that, as a 

 result, the State improperly claimed $120,441 ,702 in Federal Medicaid reimbursement. 

                                                                                                         Page 4 of 12




                                                   J

ora extrapolated tbe $1 ,704 aggregate Federal share for the 35 claims as the basis for the
$120,441,702 overclaim. The Department has reviewed the OIG workpapers furnished with
respect to the 35 specific claims. It additionally co nsulted with the local socia! services districts
("local districts'') responsible for the cases associated with these claims, interviewing stafT and
inspecting files and supporting documentation maintained by the districts. The Department
found nothing in the OIG report or the locaJ districts' documentation that would indicate that any
of the services provided were ultimately found to be inappropriate, excessi ve or unnecessary 10
maintain the patient's health and safety in tbe community. Furthennore, the Department was
able to gather additional documentation thaI, if inspected by DIG, the Department believes will
have a material impact on the estimated overpayment amount. Since the data includes
beneficiary-specific infonnation, it is not specifically addressed in the Department' s comments
herein but will be separately provided to the DIG.

Summarized below are the results of the Departmcnt"s fo llow·up by area of deficiency cited in
the DIG report.

t. NO NURSING ASSESSMENT

  OIG   Fj1tding.~:


  " ]'u rsuantto 18 NYCRR § 505. 14, .authorizations for Levell a nd"II servicn must
  incl ude .a nu rs ing assessment prepared by a registered professional nu rse. For 19 of the
  100 claims in our sample, the county socillil services district could not provide an
  ap plica ble nursing a5llCSS meDt."

  Departmem Follow-up:

  Of the 19 claims which GIG dctcnnined to be non-compliant due to lack of evidence of an
  applicable nursing assessmcnt, 17 wen:: detennined to be acceptable through Department
  review for a number of reasons which are included in explanations accompanying the
  supporting documentation that will be separately provided to OIG. Local districts are
  responsible for assuring that patients are maintained in the least res tricti ve selling appropriate
  to meet their needs, and they made diligent effort to provide needed services and adhere to
  regulation.




  OIG Findings:

  " Pursuant to 18 NYCRR § 505. I 4(b)(3)(i), a medical professlolllti is required tu comillete
  the physician's urder for personal care services within 30 ea lt' ndar days aft er conducting
  II medical exa mina tion of the benefi ciary. For 17 of the 100 claims in our sample, the
  IT.'1uireil mp.ilica l rrnfessiona t did not eumine the beneficiary within 30 ca lenda r days
  before t he physician's order wa! signed. If a medica l professional had Dot examined the
  beneficiary wi thin 66 calendar day! before t he da te the physicia n's order was signed, we
  questioned the eh.im!'
                                                                                                      Page 5 of 12




                                                4


 Department Follow-up:

 afthe 17 claims which OIG determined \0 be non-compliant due to physician's orders'
 deficiencies, 7 were determined to be acceptable through Department review for rea~ons
 included in explanations accompanying the suppOrtin g documentation that will be separately
 provided to O IG. [n addition, the documentation will demonstrate for 4 other claims that the
 specifics of the patients' conditions clearly established the ongoing need for services, wh ich is
 the regulatory intent orthe examination requirement.

 Furthermore, it is common healthcare industry practice for health care providers to rely on the
 accuracy of signed and dated physician orders. It would be impractical and cosily for
 healthcare providers to routinely verify the accuracy' of physician orders with the physician
 before services are rendered to el igible beneficiaries. The Department's review of Federal and
 State laws, rules and regulations did not identify any requirement for a provider to routinely
 verify signed and dated physician orders before services are rendered.

 The 010 findings suggest that local districts should review physician elaims to confirm that
 the physician's order is based on a same day examinati on office visit before services are prior
 authori7.ed. Thi~ is not"practical as physician elaims can be submitted to the state's eMedNY
 elaim processing system months aft~r the actual service was provided. Nor is it feasible to
 contact eac h physician by electronic means or by on-si te visit to verify that each and every
 physician's order received by the local district is based on a same day physical as indicated by
 the ordering physician. In addition to being administratively cumbersome and eost­
 prohibitive, completion of such onerous requirements would delay provision of im mediately
 needed services. Hospital and nursing home patients whose discharge plan is dependent on
 the avai labi lity of home care scrvices would have to remain institutionalized pending
 confirmation activities. Beneficiaries already living in the community, but whose health and
 safety is at risk absent services, may be faced with costly, disruptive and unnecessary
 insti tutionalization pending validat io~ of the physician's order. Physicians are state-licensed
 medical professionals, obligated to practice in accordance with accepted s.tandards ofcondl,lct.
 Health insurance programs, including Medicaid and Medicare, that req uire a phys ician's order
 based on current patient status, re ly on such standards of practi ce and accept physician orders
 for services and equipment in good faith. The Department would be amenable to reviewing
 any other states' pre-service phYSician order verification system that the OIG is aware of for
 potential application in New York State.

  The mechanisms employed by the Department and the local districts to assure compliance
  with Federal and State phy~ician order requirements are more cost-effective and more
  IIppropriately assure the timely provision of services 10 eligible beneficiaries in need of home
  care services.

3. NO PHYSICIAN' S ORDF.R

  OIG Findillgs:

  " Pursuant to § 1905(a)(24) of the Act, implementing Feder.1I regulations (42 CFR
  §440.167(a)(1» , and 18 NVCRR § 505. 14, pe rso nal care se rvices must be au thorized by a
  physician. The phys ician's orde r is part oran a utho rization package that must be
                                                                                                    Page 6 of 12




                                                5
  cOllipletcd before the a uthor ization and rea uthorization of services. Of th e 100 cla ims in
  o ur sa mple, 4 did not hllve a n a pillicable pbysician's ordu before t he authorization or
  reauthoril.ation period of person a l (are services."                  .

  Department Follow-up:

  Oflhe 4 claims which OIG determined to be non-<:ompliant due to the lack ofpbysician's
  orders docurnenlntion. 2 were determined to be acceptable through Department review for
  reasons incl uded in explanations accompanying the supponing documcn18lion that will be
  separately provided to 010. In addition, the documentation will demonstrate that one other
  claim is an Adult Protective Services case for which discontinuing services would have
  resulted in health and safety issues.

4. NO NURSING SU PE RVISI ON

   Ole; findings:

  " Purs ua nt to 18 'YCRR § 505. 14(f), a ll persons proViding Levell a nd II persona l ure
  scniees are s ubject to s upen ision by a registered nu rse. Supervisory n urs ing visiu
  must be made a t least every 90 days ucepl when the benefi ciary is selr-directi ng lind his
  or her medica l condition is nol expected 10 cba nge. In those cases, s upervisory and
  nu nliug asnss mcnl visits may be combintd a nd conducted every 6 mont hs. For 4 of the
  100 claims in our sample, t bere was no evide nce that It rcgister ed nu rse supervised the
  pcrsoOld care services within the 6 mo nths before the date of t be sa mple service."

   Department Fol/I)w-up:

   Of the 4 claims which DIG detennined to be oon-complianl due to the lack of nursing
   supervision documentation, 3 were detennined 10 be acceptable through Department review
   for reasons included in explanations accompanying the supponing documentation that will be
   separately provided to DIG.

5. A ID K 1)11) NOT R ECEIVE IN-SER VICE T RAINI NG

   " Pu rs uant to 18 NYC RR § 505.14(e)(2Xii), in-serv ice tra ining sha ll be provided, at a
   minim um, ror 3 houn semia nnua lly fo r each person providing personal care services
   (other tha n houschold ru nctions only) to develop specialized skills ur k nowledge not
   includcd in basic tra ining. fo r 2 of the 100 claims in our sample, there was no evide nce
   that tbe persona l ca re aide received lI ny in-service training for tbe ca lendar yea r that
   incl uded our sample senice date."

   Department FollOW-lip:

   Both claims which DIG detennined to be non·compliant due to insufficient documentation to
   demonstrate the persomil care aide received in-service training were detennined to be
   acceptable through Department review for reasons included in explanations accompanying
   the supporting documentation that will be separately provided to OlG.
                                                                                                   Page 7 of 12




                                                6
6. 	 PROVTDF.R DID NOT PF:RFORM CRIMINAl, mSTORY RECORD CHECK
   ON AIDF.

   " Pursuant to 18 NVCRR § 50S.l4(d)4)(v), the minimum criteria for selection of all
   persons providing personal care services sha ll include, but are not limited to, a criminal
   history record check to the exient required by 10 NYC RR § 400.23. Purs uant to 10
   NYCRR § 400.23, the openltor of a personal car services agc",~y shall obtain II criminal
   record history check from the United States Anomey General to the extent provided
   for under Federal law. This authorizes the Attorney General of the United Slates to
   conduct a search of the records of the Criminal Justice Information Services Division of
   the Federal Bureau orTnvesligation for any criminal records. For 1 orlhe 100 claims in
   our sample, thc providcr did not obtain a criminal record check in accordance with the
   above requirements."

   Department Follow-up:

   T he elaim which O IG determined non-compliant due to lack of evidence that the provider
   obtained a criminal record check was determined to be aeccptable through ])cpartment
   review for reasons included in explanations accompanying the supporting documentation that
   will be separately provided to OIG.

7. 	 LACK OF DOCUMENTATION CriME SI'ENT I'ROVJI)ING SF.RVICJ<:S TOTHR
     PATIENT WAS NOT DOCUMENTED)

   Department Follow-up:

   Department follow-up determined that the home hcalth agency was ab le to produce signed
   timesheets for all days duri ng the week that serviee was delivcred cxccpt thc OIG audit
   sample date. It appears th is particular date was an anomaly and is therefore not
   re presentative of lhe overall elaims universe. Furthermore, the agency refunded payment for
   thc datc in qucstion prior to issuance of the OIG draft report.

OIG Recommendation #2:

The State should improve its monitoring o f the personal care scrvices program to cnsure
compliance with Federal and State requirements.

Dcpartmcnt Response #2:

The Department has implemented significant improvements in monitoring local district
administration of the program since the January 2004 - December 2006 audit time period:

   • 	 In 2007, the Department established the Office of Long Term Care and within that office,
       thc Division of Home and Communi ty-Based Services .. The a llocation of additional
       staffing resou rces has afforded the Department greater opportunities for providing
       technical assistance and best practices information to newly hired and existing local
       district staff. It has additionally allo wed for increased on-site Dep.1rtmcnt reviews of
       tocal districts' program records, enhanced monitoring oflocal admi nistrative protocols
       and improved feedback to local districts in the form of a program Monitoring Report.
                                                                                                        Page 8 of 12




                                              .7
    Local districts arc required to submit cori-ective action plans that address how cited
    deficiencies will be rectified, as necessary, with follow-up conducted by Department staff
    to ensure compliance.

• 	 The Department conducted a site visit to each local district during 2008 to monitor
    program compliance. At the conclusion of each visit, staff discussed the ir findings with
    local officials and made recommendations for improved local program administration, as
    appropriate. Additionally, in 2009, the Department conducted site visits at 80 percent of
    the districts, monitoring program compliance and foll owing-up on the findings and
    recommendations from the prior visit Infonnation on each site visit is tracked utilizing
    numerous tools developed by Depanment staff and analyzed against established
    benchmarks for compliance, with additional follow-up C()nducted as needed.

• 	 The IJepartment now collects case record infonnation electronically and downloads it
    into a central database, collcetively providing infonnation from a Statewidc perspective
    on currcnt PCSP recipient demographics including, but not limited to, functional abilities,
    primary diagnoses and correlating service.lluthorizations. Identified trends and iss ues are
    util ized for evaluating curren! program requirements and to support future policy and
    program planning.

• 	 The Department also collects annual data on local districts' adm inistration of the
    program, utilizing a standardized data collection fonn thaI is electronically forwarded to
    each local district for complction. Thc data collected tracks local district
    arrangements/contracts for social and nUTliing assessment completion and furnishes
    feedback on the issues and obstacles impacting service avai lability iri the district (e.g.,
    aide shortages). Individual district infonnation is consolidated into a central database and
    utilized to analyze local, regional and Statewide trends.

• 	 The Department historically disseminated !)9licy and regulatory changes via issuance of
     Administrative Directives, Local Commissioner's Memorandums, Medicaid Update
     publications and Gcneral Infoffilation System releases. However, Stale and local district
     staff attrition, exace[bated by baby boomer retirements, has eroded the PCSP knowledge
     basco To ensure access to up-to-date program infonnation, thc Department developed
   . and released a program training and reference guide for local district staff which includes
     a cross-walk between regulatory requirements and Department-issued administrative
     protocols, he lping to ensure consistency in services Statewide.

• 	 The Department presented a workshop on The Personal Care Services Program at the
    2008 winter co nferen ce of the New York Stale Publie Welfare Association (N YSPWA).
    This workshop focused on adherence to program regulati·ons and conducting quality
    assessments of care needs. Anot her workshop on Quality Assurance Mechanisms to be
    Utilized in the Administ ration of the PCSP is plalUled for NYSPWA 's summer 2010
    conference.

• 	 The Department revised the Physician's Order form and distributed it to all local districts
    via a Local Commissioner's Memorandum. Besides generating consistency across all
    local districts, the chan ges clearly reiterate physicians' responsibi lity for assuring that the
    exami nation date and signatory comply with regulatory requirements. Furthennore.
    unresolved issues involving completion and submission of forms will result in referrals,
                                                                                                          Page 9 of 12




                                                 8
       as appropriate, to the Department's Office of Professional Medical Conduct andlor the
       State Education Department which is responsible for the licensure of medical
       professionals.

   • 	 The Department has begun work on another Local Commissioner's Memorandum              lIS   part
       of a Best Prdclices initiative. Local districts will be encouraged to create, distribute and
       collect annual consumer satisfaction questionnaires, and to utilize the dala to identify
       emerging patterns regarding specific agencies and/or individual providers. At 8
       minimum, compilation and use of the infonnation obtained through the questionnaires
       will be monitored duri ng the Department 's annual sile visil to each local district.

   • 	 The Department has initiated development of Il process to noti fy local distric ts of
       reported complaints regarding any provider agency unde r contract with the local district
       for the provision of personaJ care services. Local districts wi ll be required to follow-up
       on each complaint and ensure appropriate rcsolution.

   • 	 The Depanmenl developed and maintains a database of frequently asked questions as a
       reference for local districts, helping to ensure consistcncy in program direction and
       infonnation.

OIG Reco mmendation #3:

The Statc should work wi th CMS to resolve the eight CDPM claims and, if applicable, refund
the estimated S15,325,689 in unallowable payments.

Department   Rc.~p o nse   #3 :

The Depanment is available to work. with CMS on any issues of concern relnted to the eight
CDPAP claims reviewed by DIG.

DIG Recommendation #4:

The SUite should promulgate specific regulations related to claims submitted under tne CDPAP.

Department Rcsllonse #4:

The Depallmcnt agrees with Ihis DIG recommendation. New York State initially withheld
promulgating discrete CDPAP regulations pending release of federal guidance on state plan
option consumer directed programs. CDPAP regulations have now been drafted by the
Department's Office of Counsel, released for comment by stakeholders in 2009, revised as
appropriate and forwarded to the Governor's Office of Regulatory Reform for release for public
comment.

Ole QUALITY OF CARE ISSUES

DIG repons it conducted interviews with 55 of the 100 sampled benefi ciaries or their fami ly
members, and Ihat 38 orthe 55 indi viduals interviewed identified quality ofcuro issues regarding
service provision. However, O1G did not furnish detailed infonnation identifying these concerns
for Depanment follow-up. Quality of care is the Depanment's priority. The ability for the
                                                                                                    Page 10 of 12




                                                 9
Department and local districts to follow up fu lly'on these issues is of significant concern. The
Department therefore respectfully requests 010 to furnish a complete copy ofils file
documentation with respect to this malter.

Quality assurance is a vi tal and esseOlial component of New York's Medicaid home care system.
Mul tiple mechanisms exist at the Slate and local level to assure thai consumers receive
appropriate services from qualified providers. When these standards are not met, consumers
have access to multiple reporting systems that collaborate lIS needed, to assure quality of care and
consumer protection.

Stale Quality A .f,furance Processes

In 1984, Chapter 959 orlhe Laws of 1984 was enacted in New York Slate. These laws required
the Department's licensure of home care services agencies providing nursing, home health or
personal care services.

Pursuant to this legislation, the Department issued regulations (fitle 10, Part 766) regarding
licensed home care services agency operating requirements. TIle intent of the licensure
regulations was to make licensed home care services agencies re~ponsible for the quality and
appropriateness of care provided, whether provided directly or wough contractual arrangemenL

The licensure regulations and Department of Health policy Memorand ums subsequently issued
identified home care agency operating requirements including comprehensive personnel
requirements of individuals providing personal care services. Such requirements have been
expanded over time and include, but are not limited to:

    • 	 criminal history record cheek requirements for employees of direct care;

    • 	 employee health requirements;

    • 	 aide trBining requirements, including basic Imining, in-service Irnining, on-the job
        tmining and overal l job pcrfonnance;

    • 	 supervision requirements;

    • 	 personnel record documentation requirements.

The Department conducts a pre-opening survey prior to issuance of a home care agency license
and periodic surveys for licensure compliance periodically thereafter. Identified deficiencies
must be satisfactorily addressed within a specified time period as a condition of continued
licensure approval.

The Department also maintains a toll-free home care consumer hotline. Complaints are
investigated by Department staff located in regional offices throughout the state. On initial home
visits, licensed home care services agencies provide recipients with patient rights infonnation
which includes the phone nllmber or lhe recinnoi [)ul'lartment office for reponing quality of care
issues. Department program staffalso investigate and rc!>pond to verblllllnd wrilten complaints
received from recipients, advocates and other stakeholders. The Department has also established .
a home care worker registry that provides consumers lind home care agencies access to II listing
                                                                                                      Page 11 of12




                                                 10
of individuals qualified to provide personal care 'aide and home health aide services in New York
Stale.

Furthcnnorc, the New York State Attorney General's Office also operates a Healthcarc Bureau ·
that protects and advocates for the rights of healthcare consumers. The Bureau operates II toll·
free Helpline and collaborates with the Department as necessary on consumer complaints
received.

Local Qualitv!iuuraflce Processes

Local districts employ II number of methods to assure the delivery of qu.ality services:

    •     18 N YCRR 505 .14 requires all local distric ts to conduct an annual on-site visit \0 each
          agency with which it is contracted to furnish program services. Department staffmonitor'
        . compliance with this regulation during on-site visits.

    • 	 No fewer than 15 local districts undertake client satisfaction surveys a.lUlUalJy; more than
        a dozen discuss client satisfaction during the six-month reassessment; and at least 10
        others have initiated, within the past two ycars, a complaint process with their provider
        agencies.

    • 	 A minimum of 45 local districts meet annually with provider agencies to discuss the
        provision of service.

    • 	 Six local districts indicated that district staff participate on contracted agencies' local
        Quality Assurance Committee. These Committees arc required by licensure regulation.

    • 	 The majority of local districts monitor time and attendance records and review nursing
        supervision reports on an ongoing basis. Many districts also monitor personal care aide
        training classes and in some cases present sessions on the program including the role of
        the local district.

Depanment staffmatchcd the names in the OIG audit sample with the Department' s Complaint
Tracking System to identify any service issues reported, and found only a singlc· match for which
thc individual's complaint was rev iewed, investigated and resolved. No Olher complaints wcrc .
rcported to the system by any other individuals in the sam plc, even thougb each was provided the
Hotline nut~ber to call when scrvice issucs arc encountered.

CONCLUSION

The Department believes that the 35 claims upon which the $120,441,70) audit findings amount
is based, substantially comply with thc regulations. It fou nd nothing in the OIG report or
amongst the local districts' documentation that would indi cate that any of the services provided
were ultimately found to be inappropriate, excessive ~r uruJecessary to maintain the paticn t' s
health and safety in the community. The audit defic iencies arc based on a revicw of isolated
portions of the PCSP rcguratinn~ a~ nppn!>Cd tn the tntality nf the intent of the regulations which
is to provide support to indi viduals in tht: community ill the most integrated setting as directed by
the Supreme Court's Olmstead Decision. The State' s regulations are comprehensive and
detailed, and contain numerous standards and requirements which the state and local districts
                                                                                                    Page 12 of 12




                                                 II

diligently strive to achieve. They also contain many procedural checks and balances to assure
approprilllc services are provid ed to qualified individuals when circumstances preclude slricl
adherence to procedural standards set forth in thc regulations. A failure to compl y 100 pe rcent
with II procedural requirement does not negate the validity of the program benefit or the
beneficiary's dire need for the services. When a Medicaid beneficiary has an immediate need for
services in order to remain in his or her home. II local district may have to choose between strict
regulatory procedural compliance or patient health and safety. The Department hopes in such
situations that the federal government will agree thai patient health and safety lakes priority over
procedural compliance. If the OIG asserts thaI strict adherence to procedural requirements
contained in the State's reguJations is the essential criteria upon which federal funding is based,
New York and other stales may be forced to re-evaluate their home and community-based
program/services regulations.

The Department strongl y encourages DIG to eliminate the draft recommended financial
recoveries from the final audit report. Perhaps alternative recorrunendations could focus on
requiremenrs for the Department lO; review current regulatory required assessment/prior
authorization req uirements: promulgate assessment/prior authorization regulations that assure
provision of appropriate services to eligible recipients; and conduct statewide local district
training in required assessment and prior authori7..ation requirements. Such altemluive
recommendations would be consistent with DIG recommendations in other audits.
